STATE OF NEW YORK
OFFICE OF THE ATTORNEY GENERAL
LETITIA JAMES

BARBARA D. UNDERWOOD

ATTORNEY GENERAL

SOLICITOR GENERAL
DIVISION OF APPEALS & OPINIONS

June 14, 2021
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543-0001
Re:

Roman Catholic Diocese of Albany v. Lacewell, et al., No. 20-1501
Request for extension of time

Dear Mr. Harris:
I am counsel for respondents Superintendent Linda A. Lacewell and the
New York State Department of Financial Services in this case. I write to request
an extension of time to oppose the petition for a writ of certiorari in this matter.
The current deadline is June 28, 2021, and respondents Lacewell and the New
York State Department of Financial Services respectfully seek an extension to
August 23, 2021.
Counsel for petitioners have stated that they do not oppose the requested
extension, and good cause exists for the extension sought. I represent the State of
New York in several other matters pending in this Court that require my
attention in the same general time frame. In addition, this Court’s decision in
Fulton v. City of Philadelphia, No. 19-123, is expected to be handed down shortly
and may address issues that are relevant to this petition. The extension of time
sought would thus facilitate the preparation of a response that will best assist the
Court.

28 LIBERTY STREET, NEW YORK, NY 10005-1400 • PHONE (212) 416-8020 • FAX (212) 416-8962 *NOT FOR SERVICE OF PAPERS
WWW.AG.NY.GOV

Thank you for your consideration.
Respectfully submitted,
BARBARA D. UNDERWOOD
Solicitor General
cc:

Counsel of Record
Keith B. Caughlin
(counsel for respondent Murnane Building Contractors, Inc.)

2

